No. 19-123

In the Supreme Court of the United States
––––––––––––––––––––––––

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.
Respondents.
––––––––––––––––––––––––

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
––––––––––––––––––––––––

BRIEF OF DOROTHY FRAME, ANNLEE POST
& THE NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC. AS AMICI CURIAE SUPPORTING PETITIONERS
––––––––––––––––––––––––

BRUCE N. CAMERON
Counsel of Record
BLAINE L. HUTCHISON
FRANK D. GARRISON
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road, Ste. 600
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Amici

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES....................................... iv
INTEREST OF AMICI CURIAE ................................ 1
INTRODUCTION AND SUMMARY
OF ARGUMENT ......................................................... 3
ARGUMENT ............................................................... 6
I. The Court Should Overrule Employment
Division v. Smith ................................................... 6
A. Smith Conflicts with the Text of the Free
Exercise Clause................................................. 7
B. Smith Conflicts with the Original
Understanding of Free Exercise ...................... 9
1. Smith is Irreconcilable with the
Intellectual Context and Understanding of
Religious Liberty at the Founding.............. 9
2. Smith is Irreconcilable with the Free
Exercise Principle Developed in the
Colonies ..................................................... 11
3. Smith is Irreconcilable with the Free
Exercise Principle Found in Early
State Constitutions .................................. 14
i. The State Free Exercise Clauses
Created Substantive Protection
from General Laws .............................. 14

ii

TABLE OF CONTENTS—Continued
Page
ii. The Limiting Provisos in State Free
Exercise Clauses Did Not Mean
Every General Law .............................. 16
iii. The Lack of a Limiting Proviso in the
Federal Free Exercise Clause Suggests
Limitations Only Exist by Necessity .. 17
4. Smith is Irreconcilable with the
Application of the Free Exercise Principle
by Colonial and State Governments ......... 18
C. Smith Conflicts with the Purpose of the Free
Exercise Clause to Prevent Persecution and
Preserve Religious Liberty ............................. 21
1. Religious Liberty Requires Protection from
Generally Applicable Laws ....................... 22
2. Religious Liberty Requires Protection from
the Political Process .................................. 24
D. Smith Unjustifiably Abandons the Court’s
Constitutional Role ......................................... 26
CONCLUSION .......................................................... 31

iii

TABLE OF AUTHORITIES
Page(s)
CASES
Church of the Lukumi Babalu Aye, Inc.
v. City of Hialeah,
508 U.S. 520 (1993) .......................................... 4, 24
City of Boerne v. Flores,
521 U.S. 507 (1997) .............................................. 14
EEOC. v. Univ. of Detroit,
904 F.2d 331 (6th Cir. 1990) .................................. 1
Employment Div. v. Smith,
494 U.S. 872 (1990) ...................................... passim
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018) ............................................ 1
Obergefell v. Hodges,
135 S. Ct. 2584 (2015) .......................................... 24
Perez v. Mortgage Bankers Ass’n,
575 U.S. 92 (2015) ................................................ 25
Reed v. Int’l Union, United Auto., Aerospace
& Agric. Implement Workers of Am.,
569 F.3d 576 (6th Cir. 2009) .................................. 2
Sherbert v. Verner,
374 U.S. 398 (1963) .............................................. 13
Trans World Airlines, Inc. v. Hardison,
432 U.S. 63 (1977) .................................................. 2
iv

TABLE OF AUTHORITIES—Continued
Page(s)
United States v. O’Brien,
391 U.S. 367 (1968) ........................................ 29, 30
Wisconsin v. Yoder,
406 U.S. 205 (1972) .............................................. 13
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ........................................ 28, 29
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I ......................................... 7, 8, 26
U.S. Const. amend. IV ................................................. 7
U.S. Const. amend. V .................................................. 7
U.S. Const. amend. VIII .............................................. 7
OTHER AUTHORITIES
Blaine L. Hutchison, Protecting Religious Pluralism:
How the Liberty That Supports Same-Sex
Marriage Protects Religious Convictions,
30 Regent U. L. Rev. 461 (2018) .......................... 24
Bruce N. Cameron & Blaine L. Hutchison, Thinking
Slow About Abercrombie & Fitch: Straightening
Out the Judicial Confusion in the Lower Courts,
46 Pepp. L. Rev. 471 (2019) ................................... 2

v

TABLE OF AUTHORITIES—Continued
Page(s)
Christopher C. Lund, A Matter of Constitutional Luck:
The General Applicability Requirement in Free
Exercise Jurisprudence, 26 Harv. J.L. & Pub. Pol’y
627 (2003) ...................................................... 21, 22
Daniel 6:7–9 ................................................................. 3
Douglas Laycock, Religious Liberty and the Culture
Wars, 2014 U. Ill. L. Rev. 839 (2014) ............ 22–24
Douglas Laycock, Religious Liberty As Liberty, 7 J.
Contemp. Legal Issues 313 (1996) ...................... 22
Douglas Laycock, Text, Intent, and the Religion
Clauses, 4 Notre Dame J.L. Ethics & Pub. Pol’y 683
(1990) .................................................................... 28
Douglas Laycock, The Religious Exemption Debate, 11
Rutgers J. L. & Religion 139 (2009) ............ passim
Douglas Laycock, The Religious Freedom Restoration
Act, 1993 B.Y.U. L. Rev. 221 (1993) .............. 25, 26
Douglas Laycock, The Remnants of Free Exercise,
1990 Sup. Ct. Rev. 1 ............................... 6–8, 22–23
Michael W. McConnell, Accommodation of Religion:
An Update and A Response to the Critics,
60 Geo. Wash. L. Rev. 685 (1992) .................... 6, 29
Michael W. McConnell, Free Exercise Revisionism and
the Smith Decision, 57 U. Chi. L. Rev. 1109
(1990) .......................................................... 8, 21, 29

vi

TABLE OF AUTHORITIES—Continued
Page(s)
Michael W. McConnell, Freedom from Persecution or
Protection of the Rights of Conscience?: A Critique
of Justice Scalia’s Historical Arguments in City of
Boerne v. Flores, 39 Wm. & Mary L. Rev. 819
(1998) ............................................................ passim
Michael W. McConnell, Institutions and
Interpretation: A Critique of City of Boerne
v. Flores, 111 Harv. L. Rev. 153 (1997) ................. 5
Michael W. McConnell, The Origins and Historical
Understanding of Free Exercise of Religion,
103 Harv. L. Rev. 1409 (1990) ..................... passim
Stephen Pepper, Taking the Free Exercise Clause
Seriously, 1986 B.Y.U. L. Rev. 299 (1986) ............ 7
Supreme Ct. Rule 37.3(a) ............................................ 1
Supreme Ct. Rule 37.6 ................................................ 1

vii

INTEREST OF AMICI CURIAE1
The National Right to Work Legal Defense Foundation, Inc., Dorothy Frame, and Annlee Post submit
this brief because they have an interest in how the
Free Exercise Clause protects religious employees.
The Foundation has been the nation’s leading litigation advocate for employee free choice concerning
unionization since 1968. To advance this mission,
Foundation staff attorneys pioneered litigation protecting employees from having to choose between
their faith and their job when forced to pay compulsory union fees. See, e.g., EEOC. v. Univ. of Detroit,
904 F.2d 331 (6th Cir. 1990). More broadly, Foundation litigators defended the political and religious autonomy of employees in many cases before this Court,
including Janus v. AFSCME, Council 31, 138 S. Ct.
2448 (2018).
Dorothy Frame and Annlee Post are, with Foundation legal aid, litigating to force their unions to reasonably accommodate their religious beliefs under Title VII. Statutory accommodations are difficult to obtain, frequently require litigation, and because of Employment Division v. Smith, 494 U.S. 872 (1990), religious objectors have no constitutional recourse under
the Free Exercise Clause. Title VII is the only option,
and it is frequently inadequate.
Unions and employers often do not take Title VII
religious accommodation requirements seriously.
Under Supreme Court Rule 37.3(a), the parties consented to
the filing of this brief. Under Supreme Court Rule 37.6, no counsel for any party authored this brief in whole or in part, and no
person or entity other than the amici curiae made a monetary
contribution to its preparation or submission.
1

1

They often refuse to accommodate employees and turn
Title VII litigation into a religious examination.
Bruce N. Cameron & Blaine L. Hutchison, Thinking
Slow About Abercrombie & Fitch: Straightening Out
the Judicial Confusion in the Lower Courts, 46 Pepp.
L. Rev. 471, 495, 510 n.136 (2019) (listing examples).
Unions commonly argue that religious objectors are
wrong about their religion. In Ms. Frame’s case, her
union challenged her beliefs and required her to provide a theological defense to meet its “standard for a
‘legitimate justification’”—a standard found nowhere
in Title VII or in caselaw. A letter from her priest was
not enough. The union’s lawyer told Ms. Frame that
her objection was “not well founded in [her] Roman
Catholic Faith,” and he sent her information to educate Ms. Frame about her religious beliefs.
Courts have also significantly undermined the effectiveness of Title VII accommodations. Even though
Title VII creates an affirmative duty to accommodate,
some courts have held that an employer or union does
not have to accommodate an employee unless she is
“disciplined or discharged.” See, e.g., Reed v. Int’l Union, United Auto., Aerospace & Agric. Implement
Workers of Am., 569 F.3d 576, 580 (6th Cir. 2009)
(“Unless a plaintiff has suffered some independent
harm . . . a defendant has no duty to make any kind of
accommodation.”). In practice this means that an employee must wait uneasily for her employer to discipline or discharge her. Moreover, this Court held that
an employer does not have to accommodate an employee under Title VII if it requires “more than a de
minimis cost.” Trans World Airlines, Inc. v. Hardison,
432 U.S. 63, 84 (1977).
Smith conveys that religious exercise is trivial and
subordinate to general secular interests—altering
2

how employers, unions, and courts view and treat religion. Overruling Smith and restoring a broad constitutional right to freely exercise religion would provide
significant protection for religious employees and create legal alternatives when Title VII is inadequate.
INTRODUCTION AND SUMMARY
OF ARGUMENT
In Employment Division v. Smith, 494 U.S. 872
(1990), the Court eliminated a substantive right to exercise religion under the Free Exercise Clause and replaced it with an equal protection rule. Although
equal protection might have prevented the Inquisition, it would not have saved Daniel from the lion’s
den or prevented Catholic persecution in England under Oliver Cromwell. When Daniel’s enemies wanted
to remove him, they used a generally applicable law.
Daniel 6:7–9. Even in the ancient world, rivals knew
how to use generally applicable laws to target religious minorities. Equal protection is not enough to
prevent persecution or guarantee religious liberty.
The Founders intended more than generally applicable equal suppression.
Under Smith, the court below held that the City of
Philadelphia could prohibit Catholic Social Services
(“CSS”)—a ministry of the Archdiocese of Philadelphia—from carrying out its religious mission serving
foster children and parents only because of its religious beliefs. CSS has not turned down a single foster
parent because of its beliefs about marriage. J.A. 171–
172; Pet. App. 14a. To date, the City cannot even identify a single client who complained about CSS, let
alone who did not receive service. Pet. App. 138–39a.
This is not about anti-discrimination enforcement to
solve a problem; it is a blatant attempt to drive CSS
3

out of the profession or force it to conform to the City’s
viewpoint. Commissioner Figueroa told CSS, it should
follow “the teachings of Pope Francis”—“times have
changed,” “attitudes have changed,” it is “not 100
years ago.” J.A. 182, 365–366. Minutes later, the City
cut off CSS’s foster care referrals.
The lower court thought that the City’s conduct
was neutral—even though it targeted the only religious foster care agency with traditional religious beliefs about marriage, and even though, with one exception, the City only investigated religious foster care
agencies. The lower court also thought that the city’s
nondiscrimination requirement generally applied—
even though the City allows agencies to discriminate
based on “mental health, ethnicity, and family relationships” but not for religious reasons. City’s Br. in
Opp. 24. Because the City’s policy also forbids secular
individuals and those who hold non-traditional beliefs
about marriage from discriminating based on traditional beliefs about marriage, the lower court thought
that the City’s conduct was neutral and generally applicable. Pet. App. 26a. In other words, contrary to
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520 (1993), if the City prohibited Christians, Jews, and Santeria followers from sacrificing
animals, the policy would be neutral and generally applicable according to the lower court. As a matter of
law, that is wrong.
Smith has failed: it has allowed religious persecution and it has not avoided analytic difficulties or prevented judicial balancing. It merely signals to judges
and officials that religious rights are second tier
rights—religious believers belong in the back of a profession, or they do not belong in that profession at all.
Smith furthermore conflicts with the Court’s broad
4

reading of other constitutional provisions that provide
“exemptions” from generally applicable laws through
as-applied constitutional challenges or directly, for example, when general regulations burden speech. And
while the Court has constricted the Free Exercise
Clause, it has enlarged the Commerce Clause—increasing the federal government’s contact and interference with religion—and it has extended the Fourteenth Amendment’s Due Process Clause recognizing
implicit, unenumerated rights that often conflict with
religious exercise. This has created persistent conflict.
Smith moreover is fundamentally flawed. It has
been repudiated by a virtually unanimous United
States Congress, by the Executive Branch under President Bill Clinton, by numerous state legislatures and
judiciaries, by several Supreme Court Justices, and by
many scholars. Michael W. McConnell, Institutions
and Interpretation: A Critique of City of Boerne v. Flores, 111 Harv. L. Rev. 153, 154–55 (1997); Douglas
Laycock, The Religious Exemption Debate, 11 Rutgers
J. L. & Religion 139, 142 (2009). Smith is irreconcilable with the Free Exercise Clause’s text—the text describes a substantive right to freely exercise religion
without limitation. Smith is irreconcilable with the
Free Exercise Clause’s original understanding—the
free exercise of religion is an unalienable right that
includes protection from generally applicable laws.
Smith is irreconcilable with the Free Exercise
Clause’s purpose—the clause guarantees religious liberty by restricting the majority’s ability to regulate religious exercise. And Smith unjustifiably abandons
the Court’s constitutional role—the Court circularly
answered the constitutional question, and because,
according to the majority, it would be horrible if
judges examined religious claims, the Court held it is
5

better to allow the government to prohibit religious
exercise with no justification. Smith is egregiously
wrong. It should be overruled.
ARGUMENT
I. The Court Should Overrule Employment Division v. Smith.
The Free Exercise Clause guarantees a substantive right to freely exercise religion by restricting the
majority’s power to interfere with religious exercise.
This is a sensible solution. The Founders recognized
that some neutral and generally applicable laws inflict unique, disproportionate harm on religious minorities. And unlike other rights, religious rights are
inordinately vulnerable to general regulation. Speech
restrictions, for example, normally allow alternative
forms of communication and do not require individuals to violate their identity. Michael W. McConnell,
Accommodation of Religion: An Update and A Response to the Critics, 60 Geo. Wash. L. Rev. 685, 692
(1992). Religious restrictions, on the other hand, do
and often allow no alternatives. Thus, our Founders
reasonably protected religious liberty under the First
Amendment, not merely equality.
The Smith Court erred by replacing substantive
liberty with equal protection, and the Court failed to
recognize the distinction between religious exercise
and nonreligious activity. It assumed that the religious use of peyote, or wine, constitutionally equals its
recreational use. By that logic, “[a] soldier who believes he must cover his head before an omnipresent
God is constitutionally indistinguishable from a soldier who wants to wear a Budweiser gimme cap.”
Douglas Laycock, The Remnants of Free Exercise,
6

1990 Sup. Ct. Rev. 1, 11. If the government can prohibit nonreligious conduct, the Court thought, the government can extend its prohibition to religious conduct. This approach is not neutral, and it is not the
free exercise of religion.
Textually, historically, and normatively, the free
exercise of religion is a substantive right: the government should not interfere with religious exercise unless the government can prove that noninterference
would jeopardize the peace and safety of the community.
A. Smith Conflicts with the Text of the Free
Exercise Clause.
Smith contradicts the constitutional text. The
opinion admitted that religiously motivated conduct is
an “exercise of religion,” which Oregon prohibited. 494
U.S. at 876–77. Yet the Court held that prohibiting
Smith’s exercise of religion is not “prohibiting the free
exercise [of religion].” Id.
The text of the Free Exercise Clause is absolute. It
provides that “Congress shall make no law . . . prohibiting the free exercise [of religion].” U.S. Const.
amend. I. Other clauses in the Bill of Rights have limiting language: security against “unreasonable
searches and seizures,” “due process of law,” “excessive
bail,” and “cruel and unusual punishments.” U.S.
Const. amends. IV, V, VIII (emphasis added). The
Free Exercise Clause, on the other hand, does not. Stephen Pepper, Taking the Free Exercise Clause Seriously, 1986 B.Y.U. L. Rev. 299, 300 (1986). As with
freedom of speech and press, the Constitution unconditionally protects exercising religion. Any limitation
therefore must be narrowly implied by necessity—to
remain faithful to the text—because the text itself
7

supplies no limitations. Michael W. McConnell, Free
Exercise Revisionism and the Smith Decision, 57 U.
Chi. L. Rev. 1109, 1116 (1990). The Court’s approach
in Smith, however, conflicts with the text: it allows
unwritten limitations to swallow an absolute, written
rule.
The text also confers substantive protection—the
Constitution forbids the government from prohibiting
the exercise of religion—not merely equal protection.
An average reader, now or in the eighteenth century,
would not conclude that the text allowed the government to prohibit religious exercise if it prohibited religious exercise equally. A tyrant could equally suppress the exercise of religion. “There would be perfect
equality, but no religious liberty.” Laycock, Remnants
of Free Exercise, supra, at 13. The equal-opportunity
tyrant reveals the grave error of replacing substantive
protection under the Free Exercise Clause with equal
protection. Id. at 13–14. The Founders knew this and
therefore broadly penned the Free Exercise Clause to
protect religious liberty.
If the Founders, as Smith suggests, wanted to just
establish equal protection, they knew how to do it.
They understood the English language. The Free Exercise Clause does not say that “Congress shall make
no law discriminating against religion, or that no
state shall deny to any religion within its jurisdiction
the equal protection of the laws.” Id. at 13. It says that
“Congress shall make no law . . . prohibiting the free
exercise [of religion].” U.S. Const. amend. I. The Constitution allows Congress to prohibit many things, but
not the exercise of religion. Laycock, Remnants of Free
Exercise, supra, at 13. As Professor Laycock has written: “On its face, this is a substantive entitlement, and
not merely a pledge of non-discrimination.” Id.
8

The Founders had ready examples of statutes that
used general laws as a limiting principle for religious
rights. The English statute that “governed the relationship between religious and civil law within the
Church of England” would have been a familiar example. Michael W. McConnell, Freedom from Persecution
or Protection of the Rights of Conscience?: A Critique
of Justice Scalia’s Historical Arguments in City of
Boerne v. Flores, 39 Wm. & Mary L. Rev. 819, 836
(1998). That statute provided that religious law
should govern unless it was “repugnant to the laws,
statutes, and customs of this realm, [or damaged or
hurt] the King’s prerogative.” Id. If the Founders intended to limit the exercise of religion by compliance
with general laws, “they would have used familiar language of this sort.” Id. They did not.
A broad, substantive interpretation is the most obvious and literal reading of the text. Smith contradicts
the broad character of the right: it allows unwritten
exceptions to destroy the rule, and it relies on words
and concepts found nowhere in the constitutional text.
B. Smith Conflicts with the Original Understanding of Free Exercise.
Smith contradicts the Free Exercise Clause’s original understanding. The intellectual context and the
development and application of the free exercise of religion concept supports a broad, substantive understanding of the Free Exercise Clause.
1. Smith is Irreconcilable with the Intellectual Context and Understanding of Religious Liberty at the Founding.
The founding generation considered religious liberty as an unalienable right. Michael W. McConnell,
9

The Origins and Historical Understanding of Free Exercise of Religion, 103 Harv. L. Rev. 1409, 1456 (1990).
Two years before the ratification of the federal Bill of
Rights, every state, except Connecticut, adopted a
constitutional provision protecting religious liberty.
Id. at 1455. Four states—New Hampshire, Pennsylvania, North Carolina, and Delaware—for example, expressly affirmed that liberty of conscience is an “unalienable right.” Id. at 1456, 1517 n.242. New York, Virginia, Rhode Island, and North Carolina made similar
declarations when they ratified the federal Constitution and proposed a bill of rights. Id. at 1480–81, 1517
n.360. Their proposals recognized that the exercise of
religion, “according to the dictates of conscience,” is an
“unalienable right.” Id.
Although theorists at the founding debated many
philosophical and theological arguments for religious
freedom, the most common argument advanced in
America was that conscience is inviolable. McConnell,
Freedom from Persecution, supra, at 823. James Madison articulated the most famous presentation of this
argument in his Memorial and Remonstrance Against
Religious Assessments. Id. There, he wrote:
It is the duty of every man to render to the Creator such homage, and such only, as he believes
to be acceptable to him. This duty is precedent,
both in order of time and in degree of obligation,
to the claims of Civil Society. Before any man
can be considered as a member of Civil Society,
he must be considered as a subject of the Governour of the Universe: And if a member of Civil
Society, who enters into any subordinate Association, must always do it with a reservation of
his duty to the General Authority; much more
must every man who becomes a member of any
10

particular Civil Society, do it with a saving of
his allegiance to the Universal Sovereign.
Id. at 823–24. Madison therefore declared that religious liberty is “in its nature an unalienable right”:
because “what is here a right towards men, is a duty
towards the Creator.” Id. at 824.
Thus, religious liberty was not merely understood
as a nondiscrimination principle forbidding persecution. It was understood as an unalienable right—an
irrevocable duty to God, determined by conscience,
that is “precedent, both in order of time and in degree
of obligation, to the claims of Civil Society.” Id. And
that right conferred substantive protection from laws
that conflict with a person’s conscience. Other rights
may be “surrendered to the polity in exchange for civil
rights and protection,” but inalienable rights—particularly religious freedoms—are not. Id. at 823.
Smith contradicts the substantive understanding
of religious freedom at the founding, explained by
Madison, and the general recognition then that religious freedom is an unalienable right. Smith replaces
a sacred, unalienable right with an equal protection
rule: if the government asks everyone to bow down,
religious believers must bow down too or face the government’s wrath.
2. Smith is Irreconcilable with the Free Exercise Principle Developed in the Colonies.
The free exercise of religion developed as a legal
principle in the American colonies to protect religious
minorities. Due to religious persecution and intolerance in England, many believers traveled to America
to achieve religious freedom. The term “free exercise”
appeared in an American legal document as early as
11

1648, when Lord Baltimore required Maryland officials to not disrupt Christians, particularly Roman
Catholics, in the free exercise of their religion.
McConnell, Origins, supra, at 1425. Shortly after, in
1649, Maryland enacted the first free exercise clause
in the colonies. It stated:
noe person . . . professing to believe in Jesus
Christ, shall from henceforth bee any waies
troubled . . . for . . . his or her religion nor in the
free exercise thereof . . . nor any way be compelled to the beliefe or exercise of any other Religion against his or her consent.
Id.
Rhode Island’s Charter of 1663 also protected religious liberty but used the analogous term “liberty of
conscience.” Id. It protected residents from being “molested, punished, disquieted, or called into question,
for any differences in opinione in matters of religion,
and doe not actually disturb the civil peace of our sayd
colony.” Id. at 1426. The Charter also provided that
individuals may “freelye and fullye have and enjoye
his and theire owne judgments and consciences, in
matters of religious concernments . . .; they behaving
themselves peaceblie and quietlie and not useing this
libertie to lycentiousnesse and profanenesse, nor to
the civil injurye or outward disturbeance of others.”
Id. The proprietors of Carolina and New Jersey similarly guaranteed religious freedom through agreements with prospective settlers that paralleled the
Rhode Island Charter of 1663. Id. at 1427.
Notably, the Rhode Island Charter deviated from
an earlier decree of the state legislature that “none be
accounted a delinquent for doctrine, provided that it
be not directly repugnant to the government or laws
established.” Id. at 1426. The royal Charter, in sharp
12

contrast, did not limit religious freedom to all “laws
established.” Instead, when religious and legal obligations conflicted, believers only had to obey laws directed to maintain the civil peace and to refrain from
using their liberty for licentiousness, profaneness, or
the injury of others. Id.
These provisions suggest that the early American
colonists recognized that the freedom to practice, and
not merely believe, religion was an essential liberty.
The provisions extended protection to all “judgments
and contiences in matters of religion” and were not
limited to opinion, communication, profession, or worship. Id. at 1427.
These provisions also did not limit the exercise of
religion by using common terms to refer to all laws—
colonial compacts often used the terms “the public
good” or “the common good” to convey the full scope of
legislative power. McConnell, Freedom from Persecution, supra, at 836. Instead, they limited the free exercise of religion only when it was necessary to protect
the civil peace or to prevent licentiousness.
In modern constitutional terms, the original free
exercise principle in the colonies meant that religion
prevailed when religious obligations and secular legal
requirements conflicted, unless indispensable state
interests required government interference. This
framework parallels the rule this Court expressed in
Sherbert v. Verner, 374 U.S. 398 (1963), and Wisconsin
v. Yoder, 406 U.S. 205 (1972), but ignored in Smith:
“[t]he essence of all that has been said and written on
the subject is that only those interests of the highest
order and those not otherwise served can overbalance
legitimate claims to the free exercise of religion.”
Yoder, 406 U.S. at 215.
13

3. Smith is Irreconcilable with the Free Exercise Principle Found in Early State Constitutions.
The free exercise principle set forth in the early colonial charters animated the state free exercise
clauses enacted after the Revolutionary War.
McConnell, Origins, supra, at 1427. The colonial free
exercise principle supplied the common pattern found
in the state provisions: they “guaranteed the free exercise of religion or liberty of conscience, limited by
particular, defined state interests.” City of Boerne v.
Flores, 521 U.S. 507, 553 (1997) (O’Connor, J., dissenting).
i.

The State Free Exercise Clauses Created Substantive Protection from General Laws.

These state constitutions provide direct evidence of
the original understanding of the federal Free Exercise Clause because it is reasonable to infer that the
drafters of the Free Exercise Clause understood the
term’s historical meaning. Id. at 1456. And it is reasonable to infer that the term, “free exercise of religion” in the First Amendment, meant what it meant
in earlier state constitutions.
The New York Constitution of 1777, for example,
was typical. It provided:
[T]he free exercise and enjoyment of religious
profession and worship, without discrimination
or preference, shall forever hereafter be allowed, within this State, to all mankind: Provided, That the liberty of conscience, hereby
granted, shall not be so construed as to excuse
acts of licentiousness, or justify practices inconsistent with the peace or safety of this State.
14

McConnell, Origins, supra, at 1456. Other state provisions followed the same pattern. Each provision began by defining the free exercise right based on the
understanding (conscience) of the individual believer.
Id. at 1458–59. The right was not defined negatively
by identifying religious and nonreligious domains.
And the right extended to religiously motivated conduct. None of the clauses confined the right to beliefs
and opinions. Id. at 1459. Six of the constitutions used
the word “exercise,” which contemporary dictionaries
defined as “action.” Id. Two other constitutional provisions used broader terms—Maryland referred to religious “practice” and Rhode Island referred to matters of “religious concernment.” Id.
The state free exercise clauses identified only a
limited set of circumstances where the right to religious liberty did not apply. Nine of the states—the
overwhelming majority—limited the free exercise of
religion “to actions that were ‘peaceable’ or that would
not disturb the ‘peace’ or ‘safety’ of the state.” Id. at
1461. The Georgia Constitution of 1777, for example,
provided: “All persons whatever shall have the free exercise of their religion; provided it be not repugnant to
the peace and safety of the State.” Id. at 1457.
The limiting language is highly instructive. It confirms that the free exercise of religion included conduct and protection from generally applicable laws.
Otherwise, there was no need to specify a limitation.
Beliefs by themselves do not disturb the public peace.
Id. at 1462. And if exercising religion was subject to
every law, there would have been no need to identify
specific laws and circumstances that limited the right.
The New York Constitution, for instance, specified
that the free exercise of religion should not be “construed as to excuse acts of licentiousness, or justify
15

practices inconsistent with the peace or safety of [the]
State.” Id. at 1456. Such a proviso, if Smith were correct, would have been superfluous. Precise limitations
are useless if generally applicable laws are enforceable regardless of religious objections. The state provisions only make sense if the free exercise principle
compelled protection from (at least some) generally
applicable laws. Id. at 1462.
ii.

The Limiting Provisos in State Free Exercise
Clauses Did Not Mean Every General Law.

The argument that these limiting provisos were
synonyms for the public interest, or every law, is textually and historically implausible. As a textual matter, states had different provisos—nine limited the
free exercise of religion to “actions that were ‘peaceable’ or that would not disturb the ‘peace’ or ‘safety’ of
the state”; of these nine, four included acts of licentiousness or immorality; two others included acts that
interfere with another individual’s religious practice;
one added acts that injure or disturb others; another
inserted acts contrary to good order; and one more included acts contrary to the happiness, peace, and
safety of society. Id. at 1461–62. It is farfetched to presume these terms and variations all had the same
meaning.
Recorded debates occurred in two states—New
York and Virginia—concerning the language of the
provisos. McConnell, Freedom from Persecution, supra, at 837. In Virginia, James Madison and George
Mason disagreed about the extent of the proviso and
proposed alternative limiting provisions. John Jay
and Governor Morris did the same in New York. Id. If,
as the Smith approach assumes, the provisos referred

16

to any violation of law, then these debates and conflicting proposals would have been pointless. Id. So as
a textual and historical matter, “[w]e can say with
some confidence that these formulations were not idle
rhetorical variations.” Id.
iii.

The Lack of a Limiting Proviso in the Federal
Free Exercise Clause Suggests Limitations
Only Exist by Necessity.

Critics of the substantive interpretation have also
argued these state provisions are irrelevant because
the federal Free Exercise Clause includes no limiting
proviso. So, the critics argue, even if the state provisions provided protection from generally applicable
laws, the federal clause does not. This argument is
mistaken. The meaning of the free exercise of religion
is the issue. And that legal principle is embodied in
earlier state and colonial documents. The limiting provisos merely confirm that the free exercise principle of
religious liberty entails protection from generally applicable laws.
The Virginia Bill of Rights, which served as a
model for three of the state proposals for the First
Amendment, is instructive. George Mason proposed a
broad proviso that presumably included all legitimate
legislation. McConnell, Origins, supra, at 1462–63.
Madison objected and proposed a narrow proviso only
limiting the “full and free exercise of religion” when it
“manifestly” endangers “the preservation of equal liberty and the existence of the State.” Id. at 1463. The
Virginia legislature, however, compromised through
silence. It chose to protect the broad right and left the
limitation to be implied by necessity.
Following Virginia’s example, Madison did not include a proviso in his initial draft of the federal Free
17

Exercise Clause. Id. at 1481. Congress followed that
approach and agreed to constitutionally recognize the
broad right and exclude any limitation. This suggests
that the Founders intended the limitation, as in the
Virginia Bill of Rights, to be implied by necessity, no
doubt based on their understanding of the free exercise principle.
4. Smith is Irreconcilable with the Application of the Free Exercise Principle by Colonial and State Governments.
The practice in the colonies and early states suggests that the free exercise principle entailed exemptions for religious practice from generally applicable
laws. Id. at 1466. Although conscience and civil law
rarely conflicted, when it did, the colonists and Founders viewed exemptions as the solution.
As early as 1665, the second Charter of Carolina
explicitly provided for religious exemptions. The
Charter authorized the proprietors to grant “indulgences” and “dispensations” to residents who could
not conform with the general law because of their “private opinions.” Id. at 1428. Indulgences and dispensations were technical terms that referred to the King’s
power to exempt citizens from the law. In England,
Charles II and James II used this power to exempt religious minorities from conflicting laws. Id. In Carolina, the proprietors used this authority to exempt
Quakers from oath requirements and to allow non-Anglican towns to choose their own ministers. Id. Thus,
dating back to England, exemptions were used to resolve conflicts between law and religion.
During the founding era, conflict between religion
and law mainly involved three issues: oath require-

18

ments, military conscription, and religious assessments. Id. at 1466. Each conflict was commonly resolved by exemptions.
Oath requirements were by far the most common
source of tension. Id. at 1467. Quakers, along with
other Protestant sects, believed that it was wrong to
take oaths or swear allegiance to civil authority. Without accommodation, their beliefs would have prevented them from testifying in court, leaving them
vulnerable to adversaries and unable to legally protect themselves. Id. The no-exemption principle would
have only allowed the government to eliminate the
oath requirement for everyone or insist on the requirement without exemption. But virtually every state rejected those choices. By 1789, nearly all states resolved the conflict by providing exemptions. Id. 1468.
Conflicts also occurred because of military conscription. Quakers and Mennonites refused to bear
arms because of their religion. Id. Significant debate
occurred because of the cost of this exemption. An exemption required people with other religious beliefs to
disproportionately bear the military burden. Yet
Rhode Island, North Carolina, and Maryland exempted religious objectors from military service, and
New York, Massachusetts, Virginia, and New Hampshire later followed. Id.
During the Revolutionary War, the Continental
Congress, which struggled to field an army, granted
exemptions for religious objectors using these words:
As there are some people, who, from religious
principles, cannot bear arms in any case, this
Congress intend no violence to their consciences, but earnestly recommend it to them,
to contribute liberally in this time of universal
19

calamity, to the relief of their distressed brethren in the several colonies, and to do all other
services to their oppressed Country, which they
can consistently with their religious principles.
Id. at 1469. The language and substance of the policy
is significant. It mirrored the worldview that Madison
discussed in his Memorial and Remonstrance. The
policy treated religious conscience as a superior duty
to the claims of civil society, even at a time of “universal calamity.” Id. And the policy allowed the religious
objector to determine the appropriate accommodation—it did not compel an alternative payment or cost.
The conflict between faith and law also occurred in
states and colonies with established churches. Id.
These governments typically required citizens to financially support the established church or another
church the tithe payer selected. Baptists, Quakers,
and others, however, opposed all government compelled tithes for religious reasons. Id. The Smith principle would have resolved these conflicts by crushing
religious opposition. Instead, many states thought accommodation was the appropriate resolution. Massachusetts, Connecticut, New Hampshire, and Virginia,
for example, all responded by exempting religious objectors from the tax. Id.
The argument that these exemptions were provided by legislatures misses the point. These exemptions demonstrate how the founding generation understood the free exercise principle of religious freedom. McConnell, Freedom from Persecution, supra, at
839–40. The decisive question is not whether exemptions were enacted legislatively before the Constitution—constitutional judicial review did not yet exist.
The question is whether people at the adoption of the
20

First Amendment considered exemptions the appropriate government remedy when law and conscience
conflict. McConnell, Origins, supra, at 1470. The answer appears to be yes—exemption, not general regulation, was the solution.
The Founders enshrined rights and principles in
the Constitution that they often recognized before
1789. McConnell, Revisionism, supra, at 1119. The
best assumption is that the substance of these preexisting rights did not change when they gained constitutional status. Id. Thus, it is reasonable to presume
that the First Amendment’s framers—many of whom
served in colonial or state government—expected that
courts would apply the Free Exercise Clause similarly
to safeguard religious liberty. Id. There is no reason
to assume that constitutional recognition diminished
the free exercise principle as it was then understood
and applied.
C. Smith Conflicts with the Purpose of the
Free Exercise Clause to Prevent Persecution and Preserve Religious Liberty.
The Founders enshrined the free exercise principle
in the Constitution’s First Amendment to prevent persecution and preserve religious liberty. Smith profoundly undermines these aims. Under Smith, the political majority can prohibit unpopular religiously motivated conduct. The right to exercise religion thus depends on popularity and luck: if the majority says otherwise, there is no right to exercise religion, unless the
majority creates inconsistent rules or exceptions. In
the Smith world, Islamic police officers who believe
they are required to have a beard must hope exceptions are made for officers with skin conditions. Native Americans who are part of the Native American
21

Church must hope peyote becomes a popular or medically useful drug. Christopher C. Lund, A Matter of
Constitutional Luck: The General Applicability Requirement in Free Exercise Jurisprudence, 26 Harv.
J.L. & Pub. Pol’y 627, 664 (2003).
1. Religious Liberty Requires Protection from
Generally Applicable Laws.
Religious liberty reduces human suffering—it liberates individuals from the cruel choice between “incurring legal punishment and surrendering core parts
of their identity.” Douglas Laycock, Religious Liberty
and the Culture Wars, 2014 U. Ill. L. Rev. 839, 842
(2014). Religious beliefs are extraordinarily important
to believers—important enough to die and suffer for.
Douglas Laycock, Religious Liberty As Liberty, 7 J.
Contemp. Legal Issues 313, 317 (1996). Governmental
attempts to punish believers because of their religion
produces conflict and suffering. Religious liberty reduces human conflict and allows people with different
religious viewpoints to peacefully live together. Id.
Smith undermines these aims—it does not prevent
persecution or preserve religious liberty. Smith means
that followers of the Native American Church in Oregon, or individuals who hold traditional religious beliefs about marriage in Philadelphia, can believe their
religion but cannot practice it. Religious liberty, however, is nonexistent without the right to practice religion. Laycock, Exemption Debate, supra, at 149. The
right to believe but not practice is hollow—it subjects
believers to persecution for exercising their faith. This
is not religious liberty, and it is not the free exercise of
religion. Id.
The majority in Smith drew its line in the same
place that Oliver Cromwell did in the Seventeenth
22

Century. Laycock, Remnants, supra, at 22. Cromwell
told the Catholics of Ireland that he would not interfere with any person’s conscience. But, “if by liberty of
conscience you mean a liberty to exercise the mass, . . .
where the Parliament of England have power, that
will not be allowed.” Id. Smith would allow Cromwell
to effectively outlaw traditional Catholic Mass by
simply prohibiting the consumption of wine.
The Founders did not draft the Free Exercise
Clause to allow the winners of a religious civil war to
suppress Catholic Mass. Id. Free exercise clauses
were meant—at the very least—to prevent these types
of conflicts from occurring. Id. Smith, however, does
the opposite: it allows winners of political battles to
suppress religious exercise with no justification if it is
done generally.
For a Quaker during the seventeenth century, it
would have made little difference if Massachusetts
prohibited Quakers from the colony or allowed Quakers to live in the colony but required them, along with
other citizens, to serve in the military and swear oaths
to testify in court. Laycock, Exemption Debate, supra,
at 149–50. A conscientious Quaker could not live in
Massachusetts if he had to serve in the military or testify in court, and if he did live there, conflict and persecution would have resulted. Id. Bans on religious
practices equal bans on believers.
Smith thus fundamentally undermines the Free
Exercise Clause’s purpose and creates conflicts the
clause was intended to prevent. Id. The solution under
Smith—governmental suppression and persecution of
religious minorities—is not a noble goal.
Religious liberty reduces human conflict and suffering. If everyone is guaranteed the right to practice
religion and exercise their identity, there is much less
23

reason to fight. Laycock, Religious Liberty and the
Culture Wars, supra, at 842. In a pluralistic society,
both believers and lovers can express their identity.
Blaine L. Hutchison, Protecting Religious Pluralism:
How the Liberty That Supports Same-Sex Marriage
Protects Religious Convictions, 30 Regent U. L. Rev.
461 (2018); cf. Obergefell v. Hodges, 135 S. Ct. 2584,
2607 (2015) (“The First Amendment ensures that religious organizations and persons are given proper
protection as they seek to teach the principles that are
so fulfilling and so central to their lives and faiths, and
to their own deep aspirations to continue the family
structure they have long revered.”). Liberty for all is
the best approach.
2. Religious Liberty Requires Protection from
the Political Process.
The Founders recognized that protecting religious
liberty, particularly of religious minorities, cannot be
left up to the majority. Historical conflicts reveal that
the majority is often unlikely to protect unpopular religious minorities, and in fact is often responsible for
religious suppression. Yet Smith eliminated substantive constitutional protection and replaced it with majoritarian rule. This fundamentally undermines the
purpose of the Free Exercise Clause—to prevent persecution and preserve religious liberty by restricting
the ability of the majority to interfere with religion.
The Founders created the Bill of Rights to delimit the
majorities ability to regulate fundamental rights—
like the free exercise of religion. Majoritarian rule is
at odds with the text’s purpose and it is insufficient to
protect religious freedom.
Lukumi is a perfect test case. It is widely considered a clear example of religious discrimination—the
24

Court unanimously invalidated the ordinance in question. But Representative Steve Solarz of New York
could not get a single member of Congress to join an
amicus brief supporting the church. Laycock, Exemption Debate, supra, at 159. The religious harm and
governmental interests involved did not matter. All
that mattered was that the religious practice was unpopular. Id. Thus, even in clear cases of religious discrimination, Smith’s majoritarian approach fails to
protect religion. The Court should not continue this
error.
Legislators represent the majority and are vulnerable to lobbyists and political pressure. Judges are, or
at least should be, different. See Perez v. Mortgage
Bankers Ass’n, (Thomas, J., concurring) 575 U.S. 92,
120 (2015) (“One of the key elements of the Federalists’ arguments in support of [the judiciary’s power] to
make binding interpretations of the law was that Article III judges would exercise independent judgment”). They are at least sometimes willing to protect
unpopular minorities. Laycock, Exemption Debate, supra, at 163. Legislators, on the other hand, are seldom
willing, because they cannot afford to protect groups
that many voters reject. Thus, legislators “are least
likely to protect those religious minorities who are
most in need of protection.” Id.
Legislative exemptions are inadequate in practice
and theory. Smith requires religious individuals and
churches to ask and receive exemptions every time a
law conflicts with religious practice. And they must
win these political battles every year at every level of
government. “If they lose even once in any forum, they
have lost the war; their religious practice is subject to
regulatory interference. This is not a workable means
of protecting religious liberty.” Douglas Laycock, The
25

Religious Freedom Restoration Act, 1993 B.Y.U. L.
Rev. 221, 228–29 (1993). The Founders did not make
this error and the Court should not repeat it by continuing to uphold Smith. Religious liberty requires
protection from generally applicable laws, i.e., protection from the political process.
D. Smith Unjustifiably Abandons the Court’s
Constitutional Role.
The Smith majority gave two reasons for its conclusion that generally applicable laws that prohibit
the exercise of religion are not laws “prohibiting the
free exercise [of religion],” U.S. Const. amend. I. After
the Court recognized its decision would leave religious
protection up to the political process, it remarked that
this “unavoidable consequence of democratic government” was “preferred” because otherwise: (1) each
conscience would become a law unto itself, and
(2) judges would have to “weigh the social importance
of all laws against the centrality of all religious beliefs.” Smith, 494 U.S. at 890. Both reasons are invalid
and unsound.
The Court’s first reason is viciously circular. To determine whether the supreme law of the land—the
Constitution—protects the exercise of religion from
general laws, the Smith majority argued it does not,
because doing so would be unlawful: “[a]ny society
adopting such a system,” according to the majority,
“would be courting anarchy.” Id. at 888. But this begs
the question. If the Constitution protects religiously
motivated conduct from neutral and generally applicable laws, then it is not lawless to correctly apply the
Constitution, and neither is it antidemocratic. The ultimate question is whether the Constitution protects
believers from neutral and generally applicable laws.
26

The Smith Court failed to answer that question—it
merely concluded “we do not think the words must be
given that meaning.” Smith, 494 U.S. at 878.
Smith’s claim that anarchy would ensue is not
new, and it is not accurate. In the seventeenth century, both Roger Williams and William Penn dismissed this claim made by critics, like John Cotton.
McConnell, Origins, supra, at 1447–48. In Penn’s The
Great Case of Liberty of Conscience, he called the anarchy claim “foully ridiculous.” Id. at 1447. Religious
liberty did not excuse believers from “keeping those
excellent Laws, that tend to Sober, Just, and Industrious Living.” Id. at 1448. A century later, John Leland,
the leader of the Virginia Baptists, addressed the
same claim. He condemned the assertion that liberty
of conscience would justify crimes such as murder or
tax evasion. He argued, “when a man is a peaceable
subject of state, he should be protected in worshipping
the Deity according to the dictates of his own conscience.” Id.
Religious liberty does not excuse believers from
every law, and far from courting anarchy, it is necessary for people with conflicting beliefs to live together
in harmony. Religious liberty did not create anarchy
before Smith under federal or state free exercise
clauses. And it has not created anarchy since under
statutes or state free exercise clauses.2 Laycock,

2

Existing protections are inadequate. The Constitution was
meant to protect everyone and preserve fundamental liberties.
Although these laws protect some individuals, many others—because of Smith—are left unprotected. Smith furthermore allows—and perhaps encourages—federal and state governments
to disregard or eliminate substantive religious liberty protection.

27

Exemption Debate, supra, at 142. Congress and numerous states responded to Smith by enacting Religious Freedom and Restoration Acts to protect religious liberty. Id. These laws have not led to anarchy.
The majority’s claim is contradicted by practice
and theory—liberty is the best antidote to tyranny
and oppression. Smith’s equal suppression method, on
the other hand, has failed historically and leads to
conflict and human suffering. Douglas Laycock, Text,
Intent, and the Religion Clauses, 4 Notre Dame J.L.
Ethics & Pub. Pol’y 683, 692–93 (1990). In our constitutional system, religious liberty is not “a private
right to ignore generally applicable laws.” Smith, 494
U.S. at 886. However, it is a constitutional right—
democratically enacted—that limits the power of the
majority to interfere with religion.
The Smith majority also retorted that its approach
is “preferred” over judicial balancing. Id. at 890. This
attitude, however, conflicts with the role of the Court
and the purpose of the Bill of Rights. “Disadvantaging” minority religions is not “unavoidable,” as the
Court wrote, if courts enforce the Free Exercise
Clause. The purpose of the Bill of Rights was to avoid
certain “consequences” of democratic government by
securing fundamental rights from the reach of simple
majorities. As Justice Jackson wrote:
The very purpose of a Bill of Rights was to withdraw certain subjects from the vicissitudes of
political controversy, to place them beyond the
reach of majorities and officials and to establish
them as legal principles to be applied by the
courts. One’s right to life, liberty, and property,
to free speech, a free press, freedom of worship
and assembly, and other fundamental rights
28

may not be submitted to vote; they depend on
the outcome of no elections.
W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624,
638 (1943). Smith turns this fundamental understanding upside down and leaves the protection of religion—the first right guaranteed by the Bill of
Rights—to the political process.
The majority argued that it would be a constitutional anomaly to apply the compelling interest test
under the Free Exercise Clause because it would produce individual exceptions to generally applicable
laws. Smith, 494 U.S. at 886. First, this logic is unpersuasive—distinctiveness is sensible. Different clauses
of the Constitution, unsurprisingly, have different
meanings. There is no reason to expect the Free Exercise Clause to parallel clauses with different terms
and functions. Second, individual exceptions from
generally applicable laws is not a free exercise anomaly. An as-applied challenge is a precise parallel.
McConnell, Revisionism, supra, at 1138. Under an
as-applied challenge, a law is valid for most individuals but not for others because its application would be
a constitutional violation. Id. Third, substantive protection from generally applicable laws is “an established part of the protections for free speech and press
under the First Amendment.” Id. The case United
States v. O’Brien, 391 U.S. 367 (1968), is a familiar
example.
Religion is anomalous, however, in other respects—it is uniquely harmed by generally applicable
laws. McConnell, Accommodation of Religion, supra,
at 692. “Speech can be threatened by generally applicable laws,” but normally there are alternative channels of communication for the speaker to convey his
message. Id. Although O’Brien was prohibited from
29

burning his draft card, he could still denounce the
draft. Id. When religious individuals, however, are
prohibited from practicing their religion, no alternative means to practice religion exist. For members of
the Native American Church in Oregon, after Smith
no alternative legal means existed to ingest peyote.
Generally applicable laws, therefore, “have a far more
serious effect on religious freedom than on any other
constitutional right.” Id.
Yet the Court thought it would be “horrible” for
judges to make these determinations. Smith, 494 U.S.
at 889 n.5. But judicial balancing is the norm in virtually every other area of constitutional law. There is no
reason to believe judges are any more prone to err
when applying the Free Exercise Clause than with
any other clause. The majority’s opinion suggests that
the special problem with religion is that it requires
judges to evaluate the relative merits of religious
claims. Id. at 886–87. But this harm, even when
judges err, is far less injurious than Smith’s alternative. Rather than weigh the religious claim in Smith,
the Court’s alternative was to allow Oregon to prohibit
a central tenet of the Native American Church with
no justification. With these alternatives, it is hard to
conclude that any believer would choose the Smith approach.
Smith is simply wrong. Although religious liberty
may be imperfect, like any other human endeavor, it
is preferable to evenhanded repression. Of course,
there is a possibility that judges will err when they
apply the correct standard. But the possibility of error
does not justify abandoning the protection our founding generation enshrined and mandated in the First
Amendment’s Free Exercise Clause.
30

In this case, Smith has allowed Philadelphia to selectively investigate and shut down a religious foster
care agency because of its beliefs. Absent judicial intervention, it is hard to see why the City will not investigate every other religious organization in Philadelphia and do the same. This is persecution. It should
be prevented, yet Smith invites it. This Court should
not sanction it by continuing to uphold Smith.
CONCLUSION
The Court should overrule Smith and reverse the
decision below.
Respectfully submitted,
BRUCE N. CAMERON
Counsel of Record
BLAINE L. HUTCHISON
FRANK D. GARRISON
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Springfield, VA 22160
(703) 321-8510
bnc@nrtw.org
Counsel for Amici
June 3, 2020

31

